No. 20-5166
IN THE

Supreme Court of the United States
J.J.H.,
Petitioner,
v.
WAUKESHA COUNTY, WISCONSIN
Respondent.
CERTIFICATE OF SERVICE
I, Gabriel K. Gillett, hereby certify that I am a member of the Bar of this Court,
and that I have this 19th day of August 2020, caused a paper copy of the Motion for
Leave to File and Brief of The National Association of the Deaf and Disability Rights
Wisconsin as Amici Curiae In Support of the Petitioner to be delivered to the Court
and an electronic version of the document to be delivered to:
Colleen D. Ball
Wisconsin State Public Defender
735 North Water Street
Milwaukee, WI 53202
(414) 227-3110
ballc@opd.wi.gov

Samuel C. Hall, Jr.
Crivello Carlson, S.C.
710 N. Plankinton Ave, Suite 500
Milwaukee, WI 53203
(414)-290-7587
SHall@CrivelloCarlson.com

Counsel for J.J.H.

Counsel for Waukesha County

/s/ Gabriel K. Gillett
Gabriel K. Gillett

